July 7, 2011

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT:           Audit Report – Modes of Delivery (Report Number DR-AR-11-006)

This report presents the results of a U.S. Postal Service Office of Inspector General
(OIG) self-initiated audit to review the Postal Service’s modes of delivery in selected
districts (Project Number 10XG003DR000). Our objectives were to determine whether
the Postal Service (1) converted existing door-to-door and curbside delivery to more
economical and efficient delivery modes and (2) assigned centralized delivery to new
delivery points. This audit addresses strategic risk. See Appendix A for additional
information about this audit.

The Postal Service is facing challenges with a decline of 6.2 billion mailpieces and an
$8.5 billion net loss in fiscal year (FY) 2010. Providing mail delivery service is central to
the Postal Service’s mission and its role as a service provider. For FY 2011, the Postal
Service is working hard to reduce delivery operational costs of $25 billion, while
continuing to deliver mail to more than 150 million delivery points. Several factors affect
the efficiency and cost of delivery operations, with the mode of delivery playing an
important role. The Postal Service provides three primary modes of delivery: door-to-
door, curbside, and centralized delivery.1

Mail delivery and the mix of delivery modes have evolved over time, creating
inconsistent levels of service. Door-to-door delivery is more costly, because carriers
must deliver the mail directly to the customers’ door, placing it in a house-mounted
mailbox or through a mail slot in the door. Curbside and centralized delivery allow the
carrier to deliver the mail at the curb or centralized location.

Conclusion

The Postal Service has converted and assigned some delivery points2 to more efficient
delivery modes; however, much more could be done to minimize costs nationwide.
Though management has implemented a program to manage existing and new delivery


1
  Centralized delivery includes cluster box units (CBUs), and neighborhood delivery and collection box units
(NDCBUs).
2
  A new single mailbox or other place where mail is delivered.
Modes of Delivery                                                                   DR-AR-11-006



points, policy restrictions, customer resistance, and other factors exist that limit
management’s ability to maximize the mode of delivery.

Notwithstanding these limitations, the Postal Service should develop a comprehensive
strategic plan to aggressively move from existing door-to-door delivery to curbside
delivery, which could save more than $4.5 billion a year. Future strategies should also
evaluate savings opportunities associated with conversion of curbside to centralized
delivery — which could save the Postal Service an additional $5.1 billion — and
mandate centralized delivery for new delivery points.

This strategic plan would significantly reduce delivery costs and could be implemented
internally through policy changes. It would not require congressional approval, unlike
other significant cost-savings initiatives, such as moving from 6- to 5-day delivery. At the
same time, these changes would increase fairness and consistency of service to
customers, as curbside delivery would be the primary delivery mode.

Converting and Assigning Delivery Points to More Cost-Effective Delivery Modes

The delivery operation is the Postal Service’s largest cost center with mail delivery
occurring 6 days a week. Door-to-door delivery is the most expensive mode of delivery,
costing the Postal Service as much as $353 per delivery point, totaling $12 billion
annually. Curbside delivery is more cost effective, because it allows the carrier to
remain in the vehicle and deliver mail from the street to a mailbox or grouping of
mailboxes. Furthermore, it lessens the possibility of carrier injuries such as falls, stress
and strain on shoulder joints due to carrying a mail satchel, and dog bites. Centralized
delivery is even more cost effective and efficient, because carriers deliver mail to a
group or cluster of mail receptacles at one delivery point.

Converting existing door-to-door to curbside delivery could save the Postal Service
more than $4.5 billion. If the Postal Service converted all delivery modes to centralized
delivery, it could save an additional $5.1 billion.

Our review in selected districts identified that the Postal Service converted only 11,579
of 27 million existing door-to-door and curbside delivery points to centralized delivery.
The factors that contributed to district officials’ inability to convert existing delivery points
to less expensive modes of delivery include the following:

   Policy restrictions.
   Customer resistance to give up door-to-door service.
   Lack of a specific comprehensive strategy with targets to measure progress at unit,
    district, area, and headquarters levels.
   Best practices of successful districts were not shared.
   Districts were not required to maintain supporting documentation for converted
    delivery points.




                                                2
Modes of Delivery                                                                                    DR-AR-11-006



The Postal Service has been much more successful in assigning centralized delivery to
new delivery points. Our review in selected districts identified that, of the 345,501 new
delivery points in FY 2009, the Postal Service centralized 195,856 of them (57 percent),
leaving the remaining 149,645 to other modes. The Postal Service’s inability to assign
more new delivery points to centralized delivery resulted from policy and existing
procedures that allow districts to assign other modes of delivery, rather than the most
cost-effective mode. In addition, targets for measuring the progress of assigning
centralized delivery to new delivery points were not established at the district, area, and
national levels.

We acknowledge it could be difficult to make these changes, as the Postal Service may
never fully mitigate customers’ resistance to eliminating an existing service.3 Likewise,
we acknowledge some deliveries may never be candidates for conversion. On the other
hand, the Postal Service must take every opportunity to cut these significant delivery
costs.

As a starting point, the Postal Service could mandate centralized delivery for all new
delivery points. We estimated the Postal Service could save more than $35 million if it
took action to centralize new delivery points. See Appendix B for our detailed analysis of
this topic and Appendix C for our calculation of monetary impact.

We recommend the vice president, Delivery and Post Office Operations:

1. Revise the Postal Operations Manual, Issue 9, to remove language that inhibits
   conversion of existing delivery points and the use of centralized delivery for new
   delivery points to reduce costs.

2. Increase customer awareness of the benefits/costs of converting to cheaper delivery
   modes.

3. Develop and implement a comprehensive strategy to aggressively convert existing
   door-to-door delivery points to curbside and assign centralized delivery for new
   delivery points to reduce costs.

4. Establish targets and a way to measure progress of delivery conversions and
   assigning modes to new delivery points at district, area, and national levels.

5. Apply best practices and methods of successful districts to increase delivery point
   conversions.



3
  Given the significant cost differences of the various delivery modes, it has been suggested that a mandated change
to the current mix of delivery should be made. Practical considerations as well as public policy concerns must be
addressed before viability of the proposed change could be determined. – U.S. Postal Service Transformation Plan,
April 2002, page 69.




                                                         3
Modes of Delivery                                                             DR-AR-11-006



6. Require areas and districts to maintain supporting documentation for conversion of
   delivery points.

Fairness and Cost Issues Involved with Varying Modes of Delivery

The mix of delivery modes raises a service fairness issue. Some customers receive a
premium service for which others are paying. Door-to-door delivery is more costly and
less efficient than curbside or centralized delivery. As of December 31, 2010, more than
35 million door-to-door delivery points exist nationwide, costing the Postal Service
billions in excess costs. One possible option would be for the Postal Service to charge
customers a service fee to offset the costs of this premium service for those instances in
which customers desire or need door-to-door delivery service.

We recommend the vice president, Delivery and Postal Service Operations:

7. Determine whether a business case exists to go to a fee-based system for
   door-to-door delivery.

Management’s Comments

Management generally agreed with recommendations 2 and 5. However, they
disagreed with the overarching report conclusion and recommendations 1, 3, 4, 6, and 7
as well as the monetary impact. Management correctly noted that this broader audit
encompasses a previous project.

Regarding recommendation 2, Postal Service management indicated they could
develop internal publications to address the benefits of converting delivery points and
provide training internally on the benefits of converting business delivery. Also, they
would concentrate on increasing public awareness on the benefits of converting
business delivery. For recommendation 5, they also agreed to update the delivery
standard operating procedure, Growth and Delivery Point Management, to include
language promoting conversions and review growth management program of each
district and determine what the best practices from each are and share nationally. Also,
management is developing a training webinar to include the OIG findings available in
Quarter III, FY 2011. Management indicated they will review and disseminate the
conversion best practices in Quarter IV of FY 2011.

The Postal Service disagreed with the overall conclusion to eliminate door-to-door
service and move to curbside and from curbside to cluster box. The Postal Service
indicated their focus was on managing new growth in a responsible fashion when mail
volume and delivery points were growing. It is only now that they are experiencing a
slowing in delivery point growth combined with decreasing mail volume. The Postal
Service focus remains on core strategies for retaining and growing our mail volume and
package business while pursuing legislative change to secure 5-day delivery. Likewise,
management disagreed with recommendations 1, 3, 4, 6, and 7, which support the




                                            4
Modes of Delivery                                                               DR-AR-11-006



overall conclusion of the report. Management stated that the estimated savings and
impact were unrealistic, unattainable, and did not account for logistical and practical
challenges such as geographic limitations, equipment cost, and hardship delivery.

See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 2 and 5
and corrective actions should resolve the issues identified in the finding. However,
management’s comments on recommendations 1, 3, 4, 6, and 7 were non-responsive,
and management’s corrective actions will not resolve the issues identified in these
findings. Although management disagreed, we do not plan to take these five
recommendations through the formal audit resolution process.

The Postal Service disagreed with the overall report conclusion of aggressively
pursuing changing costly modes of delivery to more cost efficient means, and the
five recommendations associated with that conclusion. The Postal Service indicated
their focus remains on core strategies for retaining and growing our mail volume and
package business, while pursuing legislative change to secure 5-day delivery.

Although the Postal Service is pursuing the cost reduction strategy to 5-day delivery,
their financial condition calls for pursuing multiple cost cutting strategies. Adjusting
modes of delivery is a significant cost cutting strategy that could be undertaken in
parallel with reducing delivery to 5 days. Further, a cost reduction strategy focused on
delivery modes would not require congressional legislation. In fact, the Postal Service
action plan, Ensuring a Viable Postal Service for America, included evaluations of
additional concepts related to reducing cost – including modes of delivery. Likewise, in
March 2010, a McKinsey & Company analysis showed a service level opportunity,
requiring no legislative approval, could decrease the projected losses due to occur by
the year 2020. This opportunity to reduce costs involved changing delivery location to
curbside or cluster mailboxes, moving deliveries from the door, or to the lowest cost of
delivery.

We recognize the $4.5 billion does not include cost associated with the project such as
the potential for revenue at risk and other implementation costs. Finally, we recognize in
the report, and as stated in management’s comments, that this strategy and
recommendations will not be easy to implement and has some significant hurdles.
However, by not fully pursuing changes in the existing modes of delivery, the Postal
Service is foregoing an opportunity to significantly reduce its delivery operational costs.




                                             5
Modes of Delivery                                                          DR-AR-11-006



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Missions Operations

Attachments

cc: Ronald A. Stroman
    Megan J. Brennan
    Elizabeth A. Schaefer
    Philip F. Knoll
    David C. Fields (A)
    Jordan M. Small
    Jo Ann Feindt
    Drew T. Aliperto
    Linda J. Welch
    Sylvester Black
    Steve J. Forte
    Corporate Audit and Response Management




                                           6
Modes of Delivery                                                                                         DR-AR-11-006



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail delivery and the mix of delivery modes have evolved over time. During the
19th century, postage only covered the delivery of mail from Post Office™ to Post Office,
and citizens picked up their mail. In some cities, customers could pay an extra fee for
letter delivery or use private delivery firms. It was not until 1863 that carriers began
delivering mail to home addresses. In 1863, an act of Congress established free city
delivery at Post Offices where local postal income was sufficient to pay all expenses of
the service. The Postal Service did not establish rural free delivery until 1902. Initially,
carriers delivered mail to customers’ homes and often had to wait for a customer to
answer the door. Often, carriers had to redeliver mail if customers were unavailable. To
reduce the time required to complete delivery, the Postal Service proposed that
individual residential or commercial mailboxes be mounted on suitable posts or other
supports. In 1923, the Postal Service mandated that every household have a mailbox or
mail slot to receive home delivery of mail. During the 1930s, carriers began delivering
mail to customers with suitable boxes at the curbline. Curbside delivery increased as
suburban areas began to develop. In 1967, the Postal Service introduced curbside
cluster boxes.

The Postal Service provides three primary modes of delivery for existing delivery points:
door-to-door, curbside, and centralized.4 Door-to-door consists of delivering mail to slots
or receptacles at the customer’s door (see Picture 1).

                                          Picture 1. Door-to-Door Delivery




                                                 Source: www.usps.com

The Postal Service provides curbside delivery to customers who have mailboxes at the
curb and that carriers can safely and conveniently service from their vehicles. In some
instances, curbside mailboxes are grouped to a property line (see Picture 2).

4
    Post Office Boxes are considered centralized delivery, and each is counted as an individual delivery point.




                                                             7
Modes of Delivery                                                              DR-AR-11-006




                                Picture 2. Curbside Delivery




                                    Source: www.usps.com

Centralized delivery is considered the most efficient and cost effective delivery, because
it involves grouping or clustering mail receptacles at one delivery point. Examples of this
include Post Office Boxes™ in Postal Service facilities, apartment mail receptacles, or
several boxes grouped together at a single point. Centralized delivery also includes
CBUs and NDCBUs. NDCBUs are multiple compartments for centralized delivery of
mail to residents of apartment buildings or entire neighborhoods (see Picture 3).
                               Picture 3. Centralized Delivery




                                    Source: www.usps.com




                                             8
Modes of Delivery                                                                                   DR-AR-11-006



As of 2010, the Postal Service calculates the annual costs5 of the three modes of
delivery per delivery point are as follows:

                                        Table 1. Delivery Mode Costs6

                                                                                       Contract
                                                                                       Delivery
                      Mode of Delivery                    City         Rural           Service
              Door-to-Door                               $353.02       $278.44         $193.49
              Curbside                                   $224.09       $176.74         $122.82
              Centralized7                               $160.51       $126.60          $87.97
                            Source: Postal Service Headquarters Delivery Operations.

As of December 31, 2010, curbside delivery was the most popular mode of delivery for
residential delivery points and door-to-door delivery for business delivery points
(see Table 2).

               Table 2. Number of Delivery Points by Mode through December 31, 20108


                 Mode of Delivery         Residential        Business       Total Delivery Points
              Door-to-Door                  30,370,776        4,687,611           35,058,387
              Curbside                      51,074,639        1,411,440           52,486,079
              Centralized                  35,781,885         1,534,556          37,316,441
                       Total              117,227,300         7,633,607          124,860,907
                           Source: Intelligent Mail and Address Quality System (IMAQ).


OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the Postal Service (1) converted existing
door-to-door and curbside delivery to more economical and efficient delivery modes and
(2) assigned centralized delivery to new delivery points.

Specifically, we:

   Obtained possible and active delivery point data by district for FYs 2008, 2009, and
    2010 and Quarter 1, 2011 from Postal Service Headquarters Address Management
    Systems Division.



5
  The Postal Service Cost of Delivery Study, dated February 1995 was conducted to determine the cost of delivery by
type and mode of delivery. Annually, the cost of each mode is indexed to the Consumer Price Index to determine the
current year’s cost.
6
  Cost for each mode of delivery is based on the type of delivery: city or rural or contract delivery service.
7
  Centralized delivery includes apartment mail receptacles, several boxes grouped together at a single point, and
NDCBUs and CBUs. Centralized delivery could save approximately $64 to $193 per city delivery point.
8
  This table does not include the total number Post Office Boxes included in the total number of delivery points.




                                                         9
Modes of Delivery                                                                                     DR-AR-11-006




   Conducted a random sample of 189 districts in the Capital Metro, Eastern, Great
    Lakes, Pacific, Southeast, and Southwest areas and judgmentally selected three
    districts10 in the Western Area for site visits. We selected districts with the highest
    increase in new delivery points from FYs 2008 to 2009.11 See Appendix D for a list of
    the selected districts.

   Reviewed applicable documentation, policies, and procedures.12

   Obtained, reviewed, and analyzed cost data associated with door-to-door, curbside,
    and centralized delivery modes.

   Interviewed appropriate delivery operations managers at the headquarters, area,
    and district levels to obtain information on the policies and procedures for selecting
    modes of delivery for new developments, converting delivery modes for existing
    delivery points, and providing supporting performance documentation.

We conducted this performance audit from October 2009 through July 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 16, 2010, and
March 29, 2011, and included their comments where appropriate.

We assessed the reliability of delivery point data by reviewing existing information about
the data and the system that produced it, as well as interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




9
  We selected three districts from each of the six Postal Service areas reviewed during the audit phase. We did not
include the Northeast Area, because of the consolidation and elimination of several districts.
10
   We selected three districts from the Western Area to review during the survey phase.
11
   During the audit, we expanded the audit scope to conduct additional work on the fee for delivery to door-to-door
point concept. We reviewed and analyzed FYs 2008 and 2009 documentation for the 21 districts selected for site
visits and in the OIG analysis.
12
   We reviewed the following documentation, policies, and procedures, Handbook M-39, Management of Delivery
Services; Postal Operations Manual (POM), Issue 9; and Delivery Standard Operating Procedures, Growth and
Delivery Point Management.




                                                         10
   Modes of Delivery                                                             DR-AR-11-006




   PRIOR AUDIT COVERAGE

   The OIG has issued one report related to our objectives in the last several years.

                                          Final
                                         Report
   Report Title        Report Number      Date                      Report Results
Implementation         DR-AR-07-016    9/29/2007    Our review found that Headquarters Delivery
and Utilization of                                  and Retail officials effectively implemented
the Growth                                          the Growth Management Tool (GMT) in the
Management Tool                                     districts reviewed. However, officials could
                                                    enhance the effectiveness of GMT
                                                    implementation by updating the 2006
                                                    delivery standard operating procedure for
                                                    the Growth and Delivery Point Management
                                                    Program. Management agreed with findings
                                                    and recommendations.




                                              11
Modes of Delivery                                                               DR-AR-11-006



                                  APPENDIX B: DETAILED ANALYSIS

Converting and Assigning Delivery Points to More Cost-Effective Delivery Modes

For FY 2011, the Postal Service is working hard to reduce delivery operational costs of
$24 billion, while continuing to deliver mail to more than 150 million delivery points. The
Postal Service implemented a program to manage existing and new delivery points and
established policies and procedures for converting existing delivery points to a more
cost-effective delivery mode. Under this structure, local district managers are
responsible for managing established delivery points and soliciting conversions that
would be cost beneficial to the Postal Service.

The delivery operation is the Postal Service’s largest cost center with mail delivery
occurring 6 days a week. Door-to-door delivery is the most expensive mode of delivery,
costing the Postal Service as much as $353 per delivery point, totaling $12 billion
annually. Door-to-door delivery requires the carrier to dismount from the vehicle to
deliver the mail. If a new delivery point is established on a block that currently receives
door-to-door delivery, the new point could become door-to-door delivery, further
increasing costs. In the Postal Service’s Cost of Delivery Study13 establishing the cost of
delivery by type and mode, the analysis showed that door delivery costs were rising
higher than the rate for other modes of delivery at that time. Further, avoidance and
reduction of door delivery is of high importance in growth management.

Curbside delivery is more cost effective, because it allows the carrier to remain in the
vehicle and deliver mail from the street to a mailbox or grouping of mailboxes.
Furthermore, it lessens the possibility of carrier injuries such as falls, stress and strain
on shoulder joints due to carrying a mail satchel, and dog bites. OIG analysis shows the
Postal Service may realize savings by converting costly door-to-door delivery points to
curbside delivery (see Table 3).




13
     Cost of Delivery Study, dated February 1995.




                                                    12
Modes of Delivery                                                                                       DR-AR-11-006



                       Table 3. Potential Cost Savings for Converting Door-to-Door
                                   Delivery Points to Curbside Delivery

                                                                                  Potential Cost
                                        Number of                                  Savings from
                                       Door-to-Door                                 Converting
                                      Delivery Points                              Door-to-Door
                                           as of                                 Delivery Points to
                Delivery Type        December 31, 2010          Variance14       Curbside Delivery

              City                        34,502,039               $129            $4,450,763,031
              Rural                        415,016                 $101             $41,916,616
              Highway
              Contract Route               141,332                  $70              $9,893,240
              Total                       35,058,387                               $4,502,572,887
             Source: OIG analysis based on IMAQ.



The Postal Service could achieve significant additional cost savings by moving to
centralized delivery. Nationwide, 52.5 million curbside delivery points exist, costing the
Postal Service more than $10 billion annually to deliver mail. Converting curbside
delivery points to centralized delivery is more cost effective and efficient, because
carriers deliver mail to a group or cluster of mail receptacles at one delivery point. OIG
analysis also shows the Postal Service might realize savings for converting curbside
delivery points to centralized delivery. However, this move would likely be very difficult
due to potential public resistance (see Table 4).




14
  Variance represents the difference between the cost of door-to-door delivery and curbside delivery. Door-to-door
delivery for city, rural, and highway contract route delivery points costs $353, $278, and $193, respectively. Curbside
delivery for city, rural, and highway contract route delivery points costs $224, $177, and $123, respectively.




                                                          13
Modes of Delivery                                                                                      DR-AR-11-006



                        Table 4. Potential Cost Savings for Converting All Curbside
                                  Delivery Points to Centralized Delivery

                                                                                   All Curbside      Potential Cost
                                                               Potential Cost        Delivery        Savings from
                                                               Savings from           Points         Converting All
                               Number of                        Converting          (including         Curbside
                               Curbside                          Existing            Door-To-          Delivery
                                Delivery                         Curbside              Door            Points to
                               Points as                         Delivery            Delivery         Centralized
                                   of                            Points to            Points           Delivery
                               December                         Centralized        Converted to
        Delivery Type           31, 2010       Variance15        Delivery           Curbside)
City                           19,497,922          $63         $1,228,369,086       53,999,961       $3,401,997,543
Rural                          31,241,094          50          1,562,054,700        31,656,110        1,582,805,500

Highway Contract Route          1,747,063          35           61,147,205           1,888,395          66,093,825
Total                          52,486,079                      $2,851,570,991       87,544,466       $5,050,896,868
                                       Source: OIG analysis based on IMAQ.

The McKinsey & Company report, Postal Service Future Business Model, dated March
2, 2010, states the Postal Service can pursue either of two courses of action to address
its financial challenges: (1) actions within its control, and (2) fundamental non-legislative
and legislative change options. Specifically, the report states that a fundamental non-
legislative service level opportunity exists for the Postal Service, changing delivery
location or mode to curbside or centralized.

With conversions to curbside and centralized deliveries, additional costs for equipment
may be incurred. For conversions to curbside delivery, Postal Service Headquarters
officials stated they do not purchase or provide maintenance for curbside mailboxes, so
these costs are unknown. However, when the Postal Service solicits customers for
conversions to centralized delivery, it pays the cost for delivery equipment.
Management stated that, in some instances, they negotiate with customers to share
equipment costs. Customers are responsible for equipment costs if they request
conversions or if the Postal Service determines conversions are required, because of
safety or security reasons. Although the Postal Service may incur additional costs to
purchase equipment, it would receive a significant return-on-investment over time for
converting to a more cost-effective delivery mode.




15
  Variance represents the difference between curbside and centralized delivery. Curbside delivery for city, rural, and
highway contract route delivery points costs $224, $177, and $123, respectively. Centralized delivery for city, rural,
and highway contract route delivery points costs $161, $127, and $88, respectively.




                                                          14
Modes of Delivery                                                                                  DR-AR-11-006




Policy Restrictions and Customer Resistance to Converting Existing Delivery Points

POM, Issue 9, Section 631.6, states that the key to converting existing deliveries is
identifying those that are most costly to the Postal Service. It further states that delivery
managers can go into any delivery territory where delivery has been established for
more than 1 year and solicit to convert the mode of delivery if it would be cost beneficial.
However, customer signatures must be obtained before conversion. Some district
officials have had difficulty converting existing door-to-door and curbside delivery points,
because of customer resistance. For example:

    Appalachian District officials stated they have solicited customers to convert
     door-to-door delivery to curbside and centralized delivery but have met with a
     considerable amount of customer resistance. Officials stated that conversion
     proposals have resulted in congressional inquiries in which customers often use the
     agreement clause16 of the Postal Service policy to oppose delivery mode
     conversions.

    Kentuckiana District officials have not aggressively pursued conversion because of
     customer resistance. They stated the current Postal Service policy does not
     mandate centralized delivery; therefore, conversions of door-to-door and curbside
     delivery are not solicited.

    Officials in the Gateway, Chicago, and Tennessee districts have successfully
     converted some delivery points. However, they stated customer resistance and
     Postal Service policy prevent them from converting more delivery points.

    Lastly, Northern Ohio District officials successfully converted existing door-to-door
     delivery points to centralized delivery. However, they do conversions when
     customers request them instead of soliciting for conversion, because when
     customers learn about the proposed conversions, they file congressional inquiries to
     stop them.

The Postal Service surveyed mailers who also expressed concern with converting
existing door-to-door and curbside delivery points. According to the Postal Service’s
action plan, Ensuring a Viable Postal Service for America, dated March 2010, changing
deliveries to curbside or centralized would reduce delivery costs. However,
management would not pursue this, because mailers were concerned that shifting
delivery to curbside or community mailboxes would undermine the convenience of mail
delivery and lead to customers checking mail less frequently, resulting in reduced mail
volume. In addition, the action plan states that roughly 15 to 20 percent of small and
mid-sized businesses expect to reduce volume by more than 10 percent if delivery

16
  POM, Issue 9, Section 631.6, “Conversion of Mode of Delivery,” states that customer signatures must be obtained
before conversion. In instances in which residences or lots are owned, each owner must agree to the conversion in
writing. Owners who do not agree must be allowed to retain their current mode of delivery.




                                                        15
Modes of Delivery                                                                 DR-AR-11-006



points are changed. Finally, the action plan states that shifting delivery points would
also be expensive and slow to implement. Although we agree that mail volumes could
be impacted to some degree by a change in delivery modes, we believe that an
aggressive strategic plan that is effectively implemented, could result in a minimal
impact to mail volume and significant cost savings

Establishing a Comprehensive Strategy with Specific Targets for Conversions

We found the Postal Service has not developed a comprehensive strategy with specific
targets for measuring progress to convert to more cost-effective delivery modes for the
district, area, and headquarters levels. The conversion percentage of existing delivery
points varied from district to district, with the Honolulu District the most successful,
converting 1.22 percent of their existing door-to-door and curbside delivery points and
six districts with no points converted (see Table 5). Historically, converting delivery
points has been difficult, because the language in the POM regarding conversions has
been long established and is not designed to actively encourage conversion of existing
delivery points. Establishing specific targets will encourage district officials to strive to
identify a percentage of costly delivery points each year for possible conversion.




                                              16
Modes of Delivery                                                                                      DR-AR-11-006




                            Table 5. Total Number of Converted Delivery Points

                                      Total Number of                Total Number of          Percentage of
                                  Active Existing Delivery             Converted              Delivery Points
             District                       Points                   Delivery Points            Converted
     Honolulu                              255,951                         3,129                   1.22%
     Mid-Carolinas                        1,673,364                        4,111                   0.25%
     San Francisco                         760,203                         1,783                   0.23%
     Salt Lake City                        931,182                         1,200                   0.13%
     Mississippi                         1,025,612                          799                    0.08%
     Hawkeye                               953,954                          192                    0.02%
     Gateway                              1,571,233                         156                    0.01%
     Northern Ohio                        1,696,647                         167                    0.01%
     Sierra Coastal                      1,167,812                           32                    0.00%
     Chicago                               582,608                           10                    0.00%
     Albuquerque                           385,300                         N/A17                    N/A
     Atlanta                              1,933,381                         N/A                     N/A
     Central Illinois                     1,381,386                         N/A                     N/A
     Greensboro                          1,646,077                          N/A                     N/A
     Houston                              1,440,020                         N/A                     N/A
     Seattle                              1,585,623                         N/A                     N/A
     Tennessee                           2,410,611                          N/A                     N/A
     Appalachian                          1,073,878                         018                    0.00%
     Greater South Carolina              1,345,226                           0                     0.00%
     Kentuckiana                          1,551,993                           0                    0.00%
     Oklahoma                            1,249,294                           0                     0.00%
     Total                               26,621,355                       11,579
                                Source: District Offices’ Conversion Documentation.

Best Practices of Successful Districts

We understand the difficulty many district officials face in terms of policy restrictions and
customer resistance when attempting to convert their existing door-to-door and curbside
delivery points. However, we believe an opportunity might exist for successful district
officials to share their best practices with those who have either converted only a small
percentage or no delivery points.

Specifically, the Honolulu District had the highest conversion percentage of all the
districts reviewed. According to district officials, their success is attributed to their
aggressive and active participation in centralized delivery conversions with the
assistance of local leadership, mayors, developers, and township leaders.

Although the Seattle District has not successfully converted many residential delivery
points, they have directed their efforts to converting business delivery points —

17
   Indicates district officials stated they performed conversions but were unable to provide documentation to support
the number of delivery points converted.
18
   Indicates district officials did not convert existing delivery points to centralized delivery.




                                                          17
Modes of Delivery                                                                                     DR-AR-11-006



particularly malls and shopping centers — because it is easier to get agreement from
the owner of a shopping mall or shopping center.

Supporting Documentation for Delivery Point Conversions

District officials did not always maintain documentation to support conversions of
existing door-to-door and curbside delivery points.19 By maintaining sufficient supporting
documentation, district officials can better substantiate whether conversions were
performed and monitor and track results. Also, maintaining documentation will provide
districts with historical information they can use to establish goals for future delivery
conversions.

In seven of the districts reviewed, we found:

      Seattle District officials converted business delivery points such as shopping malls
       and shopping centers from door-to-door delivery to centralized delivery and
       residential delivery points in areas where mail theft and safety issues were a
       concern. However, they could not provide data showing the actual number of
       conversions.

      Atlanta District officials stated they converted existing door-to-door delivery points to
       curbside delivery points. District officials considered this to be a conversion to
       centralized delivery, because of multiple curbside boxes being placed on one post.
       However, this does not meet the criteria for centralization. Additionally, the Atlanta
       District did not provide documentation to support the number of delivery points
       converted.

      Albuquerque, Central Illinois, Greensboro, Houston, and Tennessee district officials
       did not provide any conversion data or documentation to support their conversions.

Assigning New Delivery Points

Managers in the 21 districts reviewed assigned 195,856 (57 percent) new delivery
points to centralized delivery in FY 2009. District officials established modes other than
centralized delivery for the remaining 149,645 (43 percent) new delivery points
(see Table 6).




19
     Each district varied in how it maintained and tracked delivery point conversion documentation.




                                                            18
Modes of Delivery                                                                                      DR-AR-11-006




                             Table 6. FY 2009 New Centralized Delivery Points

                                                  Number of
                                    Total            New            Percentage of          Number of New
                                    New           Centralized        Centralized           Door-to-Door or
                                  Delivery         Delivery           Delivery            Curbside Delivery
             District              Points           Points             Points                  Points
     Honolulu                      4,510             4,510             100.0%                     0
     Seattle                       18,477           18,477             100.0%                     0
     Sierra Coastal                13,561           13,416             98.9%                     145
     Chicago                       8,154            8,037              98.6%                     117
     San Francisco                 5,811             5,083             87.5%                     728
     Hawkeye                        6,759            5,738             84.9%                    1,021
     Salt Lake City                13,344           11,284             84.6%                    2,060
     Albuquerque                   10,470           8,358              79.8%                    2,112
     Houston                       49,431           39,440             79.8%                    9,991
     Central Illinois               5,151            3,892             75.6%                    1,259
     Atlanta                       25,023           11,643             46.5%                   13,380
     Greensboro                    25,297           11,328             44.8%                   13,969
     Greater South Carolina        23,141           10,172             44.0%                   12,969
     Northern Ohio                 5,037            2,175              43.2%                    2,862
     Gateway                       11,832            4,734             40.0%                    7,098
     Mississippi                   18,915           7,509              39.7%                   11,406
     Mid-Carolinas                 27,564           10,183             36.9%                   17,381
     Tennessee                     27,229           8,636              31.7%                   18,593
     Kentuckiana                   17,686            4,653             26.3%                   13,033
     Appalachian                   12,031           3,026              25.2%                    9,005
     Oklahoma                      16,078           3,562              22.2%                   12,516
     Total                        345,501          195,856                                    149,645
                                                   Source: IMAQ.


The Honolulu and Seattle districts centralized 100 percent of their new delivery points.
The Honolulu District established a district policy to centralize all new delivery points.
District officials actively encourage centralized delivery with builders and developers
through the “Go Central, Go Green” program.20 Seattle District officials stated that
centralized delivery is the preferred mode of delivery for new developments. District
officials also stated they have established good working relationships with builders and
developers, and the customers understand that centralized delivery is the preferred
mode of delivery for new points. Officials added that they do not have the resistance
that other districts may have experienced when implementing centralized delivery for
new points.



20
  The goal of the program is to encourage customers to use centralized delivery as a means of protecting and
improving the environment. For example, district officials stated that communities served by centralized delivery
routes use 40 percent fewer postal vehicles, which results in a 40-percent reduction in vehicle emissions and fuel
use.




                                                          19
Modes of Delivery                                                                DR-AR-11-006



Eight of the 21 districts established centralized delivery for 70 percent or more of their
new delivery points. These districts have all established policies that require or
emphasize the use of centralized delivery for all new delivery points. Additionally, these
districts provided their policies to builders and developers, which increased awareness.
The remaining 11 districts used centralized delivery on less than 50 percent of their new
delivery points. In these districts, we found that curbside delivery was the most utilized
delivery mode for new delivery points.

Similar to conversions, the Postal Service has not established specific targets for
measuring progress of centralized delivery for the district, area and national levels for
new points. As shown earlier in Table 6, the percentage of new delivery points assigned
to centralized delivery varied from district to district, with a two districts assigning
centralized delivery to 100 percent of new points and some districts assigning
centralized delivery to 26.3 percent or less to new points. Establishing specific targets
will encourage officials to strive to reduce costs by maximizing centralized delivery for
new points.

District officials stated that centralized delivery is the preferred mode of delivery for new
delivery points because it is more cost effective. However, POM Issue 9, Section 63,
provides all new establishments and extensions with all three delivery mode options:
door-to-door, curbline boxes, or central delivery using receptacles. The Postal Service
policy does not mandate centralized delivery for all new delivery points. According to
district officials, builders, and developers are aware of options for door-to-door and
curbside delivery and do not always agree to centralized delivery. District officials also
stated that builders and developers assume that centralized delivery devalues property,
particularly in high-income neighborhoods. Additionally, district officials stated that some
residential customers in lower income neighborhoods resist centralized delivery,
because they are aware of the Postal Service’s other delivery options, and believe they
are being slated for centralized delivery, because of their financial status. In our opinion,
the Postal Service should make the final decision on assigning the more cost-effective
mode of delivery for all new delivery points.

Postal Service Headquarters officials stated the mechanism for changes to or
clarifications of regulations within the POM includes publication in the Federal Register
for comment and recommendation from the Postal Regulatory Commission (PRC).
According to Title 39 U.S.C. § 3661, when the Postal Service determines a change
should occur in the nature of postal services that will generally affect service on a
nationwide or substantially nationwide basis, it will submit a proposal requesting an
advisory opinion on the change to the PRC. According to Postal Service officials, they
may initiate a request for an opinion but that does not guarantee approval. It is within
the Postal Service’s discretion to accept or reject the substance of any such opinion.
Finally, converting and assigning delivery points to more cost-effective modes does not
require the Postal Service to seek congressional approval, unlike reducing delivery from
6 to 5 days. These changes would increase fairness and consistency of service to
customers, as street delivery would be the primary delivery mode.




                                             20
Modes of Delivery                                                                                       DR-AR-11-006




Fairness and Cost Issues Involved with Varying Modes of Delivery

In the U.S., mail recipients have access to mail delivery service at no charge to the
customer, regardless of whether the customer’s mailbox is located at the door, at the
curb, or in a centralized location. Door-to-door delivery is by far the most expensive
delivery mode at $353 per city delivery compared to $224 and $161 for curbside and
centralized delivery, respectively. These varying modes of delivery result in fairness
concerns in service levels to customers. Additionally, the delivery costs for the premium
service of door-to-door delivery are paid for by postage bought by customers who may
not receive this service.

With the current financial situation the Postal Service is facing, mail volume declines,
and financial losses, the Postal Service may need to consider charging customers a fee
to receive mail delivery at their door versus at the curbside or at a centralized delivery
point. Charging a fee for door-to-door delivery would increase fairness as the increased
delivery cost for this extra service would be borne by postal ratepayers, as well as
customers who request the additional level of service.

Imposing fees for door-to-door delivery may create a public policy issue as well as
operational, financial, and legal challenges. First, regarding public policy, customers
already receiving mail at their door at no cost may be reluctant to pay a fee for the same
service. Further, imposing a fee for door-to-door delivery may result in an increase in
the number of hardship cases. Customers may feel that their physical limitations21
require them to receive mail via door-to-door delivery free of charge.

Second, imposing a fee for door-to-door delivery may create operational issues, such as
subsections of door delivery. On any given route, some customers may elect to retain
their door delivery for a fee, while others may not. This could result in increased delivery
costs as various modes of delivery could be created on the same route.

Third, the Postal Service is trying to scale back the number of Post Offices to reduce
costs while expanding customer access via more convenient locations. Charging
delivery fees may counter these efforts as a fee-based system could create the need to
collect payments for such a service at a postal facility. Lastly, as with any national
change in service, the Postal Service will have to request an advisory opinion from the
PRC to impose the fees.

Although pursuing a fee-for-service initiative would be challenging, we believe the
Postal Service should consider the option as it evaluates action to be taken in the
delivery area.

21
   It is the opinion of the OIG that the Postal Service should not make hardship determinations to validate a
customer’s special needs. We believe the federal government should be responsible for determining this type of
societal issue. Additionally, costs for providing door-to-door delivery to persons with hardships should be paid from
appropriated funds or tax dollars and not from stamp funds or Postal Service revenue.




                                                          21
Modes of Delivery                                                                                       DR-AR-11-006



                APPENDIX C: OIG CALCULATION OF MONETARY IMPACT22

The OIG estimates the Postal Service could save more than $4,538,016,397 in funds
put to better use and questioned costs (see Table 7).

                                    Table 7. Summary of Monetary Impact
                      Finding                            Impact Category                       Amount
         Converting Existing Door-to-Door         Funds put to better use                   $4,502,572,887
         to Curbside Delivery Points
         Centralizing New Delivery Points         Questioned costs                             24,052,226
         (FY 2009)
         Centralizing New Delivery Points         Funds put to better use                      11,391,284
         (FY 2010)
                       Total                                                                 $4,538,016,397
                                               Source: OIG analysis

The OIG estimated the Postal Service could save more than $4,502,572,887 in funds
put to better use23 for FY 2011 by converting existing door-to-door delivery points to
curbside delivery (see Table 8).

                         Table 8. Potential Cost Savings for Existing Door-to-Door
                                   Delivery Points to Curbside Delivery


                                           Number of
                                         Door-to-Door                                  Potential Cost
                                            Delivery                                    Savings from
                                          Points as of                              Converting Door-to-
                                         December 31,                               Door Delivery Points
                Delivery Type                 2010               Variance24         to Curbside Delivery
          City                             34,502,039              $129                $4,450,763,031
          Rural                             415,016                 101                  41,916,616

          Highway Contract Route            141,332                   70                 9,893,240
          Total                            35,058,387                                  $4,502,572,887
                                                Source: OIG analysis.

    We calculated the existing delivery funds put to better use for FY 2011 by obtaining
     the number of existing door-to-door delivery points as of December 31, 2010. We
     determined cost savings by comparing the cost of existing door-to-door delivery to
     the cost of curbside delivery for the same number of delivery points.



22
   Our monetary impact calculation did not include the $5.1 billion in savings if all delivery modes were centralized.
23
   Funds that could be used more efficiently by implementing recommended actions.
24
   Variance represents the difference between the cost of door-to-door delivery and curbside delivery. Door-to-door
delivery for city, rural, and highway contract route delivery points costs $353, $278, and $193, respectively. Curbside
delivery for city, rural, and highway contract route delivery points costs $224, $177, and $123, respectively.




                                                          22
Modes of Delivery                                                                                     DR-AR-11-006



    The Postal Service Cost of Delivery Study, dated February 1995,25 included carrier
     office time and street time and vehicle costs in the cost of each delivery mode.
    We did not consider the costs for curbside equipment and maintenance when
     calculating cost savings, because the Postal Service had no available cost data.
    We did not consider the percentage of hardship cases when calculating cost
     savings, because the Postal Service does not have a database that tracks this
     information.
    We did not consider the percentage of delivery points that can never be converted
     when calculating cost savings, because the Postal Service does not track this
     delivery statistic.

We identified $24,052,226 in questioned costs26 in FY 2009 as a result of not
centralizing new delivery points. In addition, we estimated the Postal Service could save
$11,391,284 in funds put to better use27 for FY 2010 by mandating centralized delivery
for new delivery points (see Table 9).

                  Table 9. Potential Cost Savings for Centralizing New Delivery Points

                                      New Delivery
                                         Points               New Delivery
                                      Questioned                 Points
                                         Costs                Funds Put to
                                        FY 2009                Better Use           Total Potential
                     Area                                       FY 2010             Cost Savings
               Capital Metro           $ 3,769,319             $1,900,524            $ 5,669,843
               Eastern                  2,889,504               800,794                3,690,298
               Great Lakes              2,165,010               825,690                2,990,700
               Pacific                  1,154,371               777,618                1,931,989
               Southeast                5,079,412              1,511,732               6,591,144
               Southwest                6,558,529              4,175,286              10,733,815
               Western                  2,436,081              1,399,640               3,835,721
                     Total             $24,052,226            $11,391,284            $35,443,510
                                                 Source: OIG analysis.

    We calculated the new delivery point questioned costs for FY 2009 by obtaining the
     number of door-to-door and curbside delivery points added during the fiscal year.
     We determined cost savings by comparing the cost of new curbside and new
     door-to-door delivery to the cost of centralizing the same number of delivery points.

    We calculated the new delivery funds put to better use for FY 2010 by obtaining the
     number of door-to-door and curbside delivery points added during the fiscal year.
     We determined cost savings by comparing the cost of new curbside and new
     door-to-door delivery to the cost of centralizing the same number of delivery points.


25
   Cost studies were conducted in 1974, 1985, and 1995.
26
   Question Costs are unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract,
etc.
27
   Funds that could be used more efficiently by implementing recommended actions.




                                                         23
Modes of Delivery                                                             DR-AR-11-006



   We did not consider separate costs for purchasing, installing, and maintaining
    centralized delivery equipment in the cost-savings calculation, because the delivery
    mode data included these costs.




                                            24
Modes of Delivery                                            DR-AR-11-006




            APPENDIX D: SELECTED AREAS AND DISTRICTS REVIEWED

                            Area      District
                    Capital Metro   Greensboro
                                    Greater South Carolina
                                    Mid-Carolinas

                    Eastern         Appalachian
                                    Kentuckiana
                                    Northern Ohio

                    Great Lakes     Central Illinois
                                    Chicago
                                    Gateway

                    Pacific         Honolulu
                                    San Francisco
                                    Sierra Coastal

                    Southeast       Atlanta
                                    Mississippi
                                    Tennessee

                    Southwest       Albuquerque
                                    Houston
                                    Oklahoma

                    Western         Hawkeye
                                    Salt Lake City
                                    Seattle




                                      25
Modes of Delivery                                       DR-AR-11-006



                    APPENDIX E: MANAGEMENT’S COMMENTS




                                   26
Modes of Delivery        DR-AR-11-006




                    27
Modes of Delivery        DR-AR-11-006




                    28
Modes of Delivery        DR-AR-11-006




                    29
Modes of Delivery        DR-AR-11-006




                    30
Modes of Delivery        DR-AR-11-006




                    31
Modes of Delivery        DR-AR-11-006




                    32
Modes of Delivery        DR-AR-11-006




                    33
Modes of Delivery        DR-AR-11-006




                    34
